OFFICE OF INSPECTOR GENERAL



AUDIT OF
USAID/AFGHANISTAN’S
AFGHAN CIVILIAN
ASSISTANCE PROGRAM

AUDIT REPORT NO. 5-306-10-004-P
December 15, 2009




MANILA, PHILIPPINES
Office of Inspector General


December 15, 2009

MEMORANDUM

TO:       	          USAID/Afghanistan Mission Director, William M. Frej

FROM: 	              Regional Inspector General/Manila, Bruce N. Boyer /s/

SUBJECT:	            Audit of USAID/Afghanistan’s Afghan Civilian Assistance Program
                     (Audit Report No. 5-306-10-004-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft audit report and included the comments in their entirety
in appendix II.

The audit report contains seven recommendations to assist the mission in improving various
aspects of the program. On the basis of information provided by the mission in response to the
draft report, we determined that final actions have been taken on recommendations 1, 2, 4, 5, 6,
and 7. In addition, a management decision has been reached on recommendation 3. A
determination of final action will be made by the Audit Performance and Compliance Division
upon completion of the planned corrective actions.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd, 1308 Pasay City
Metro Manila, Philippines
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objective .................................................................................................................. 3 


Audit Findings ................................................................................................................. 5 


Is USAID/Afghanistan’s humanitarian assistance service 

provided through the Afghan Civilian Assistance Program
achieving its main goal?

     Program Assistance Was Not Effectively
     Monitored and Evaluated ............................................................................................ 6 


     Program Progress Was Impeded by
     Understaffing .............................................................................................................. 8 


     Program Implementation Approaches 

     Can Be Improved ........................................................................................................ 9 


Evaluation of Management Comments ....................................................................... 13 


Appendix I─Scope and Methodology.......................................................................... 14 


Appendix II─Management Comments......................................................................... 16 

SUMMARY OF RESULTS

The main goal of the Afghan Civilian Assistance Program (the program) is to provide
assistance to Afghan families and communities that have suffered losses as a result of
military operations against insurgents and the Taliban. Assistance under the program is
generally provided in goods and services to those who have suffered losses─a farmer
might receive a tractor or livestock and a grocer might receive merchandise to restock
his store. The program is being implemented through a $27 million, 3-year cooperative
agreement (April 2007 to April 2010) with the International Organization for Migration
(IOM, the implementer). As of December 31, 2008, $18.5 million had been obligated
and about $6.4 million had been spent for program activities. (See page 3.)

The audit concluded that the program is not on target to assist eligible beneficiaries
under the program. The implementer reported that as of September 1, 2008, close to
the midpoint of the program, only 803 of the more than 6,000 eligible families under the
program were receiving assistance (about 13 percent). As of January 22, 2009, the
implementer reported that it had actually assisted only about 40 percent of the estimated
target number of 5,102 eligible families included in a recovery plan it had developed in
October 2008. (See page 5.)

In addition, until about the midpoint of the program, USAID/Afghanistan had very limited
involvement in the program and little information about its progress. The mission had
not followed up regularly on the status of the implementer’s implementation plan,
monitoring and evaluation plan, and quarterly program reports. The mission also had
not made sufficient site visits to adequately evaluate the program’s progress and had not
properly monitored the staffing of positions for the implementing organization. (See
pages 5, 6, and 7.) In addition, while we recognize that the program was difficult to staff
because of security concerns, understaffing continued to be a challenge at the time of
the audit. As of January 2009, a subcontractor for the implementer had hired only 56 of
the 86 employees deemed necessary to meet program targets. At the time of the audit,
the implementer’s documents indicated that its subcontractor was still in the process of
hiring 30 staff members for the six regional offices where the program was being
implemented. In addition, the implementer had not taken advantage of opportunities to
improve the effectiveness and efficiency of the program, such as limiting the program’s
eligibility period and requiring beneficiaries to present Afghan national identification
cards. (See pages 8, 9, 10, and 11.)

The audit made seven recommendations that were deemed necessary to help the
mission properly oversee implementation and evaluation of the program. The
recommendations concern:

   •	 Allowing sufficient time for mission staff to monitor and evaluate the program
      properly. (See page 8.)

   •	 Requiring the program implementer to prepare and submit required planning and
      program reports on time. (See page 8.)

   •	 Requiring the program implementer to staff the program adequately. (See page
      9.)


                                                                                         1
   •	 Revising the eligibility period for qualifying military incidents to a more recent
      cutoff date. (See page 11.)

   •	 Closing out program grants that were essentially complete. (See page 11.)

   •	 Requiring program beneficiaries to present national identity cards for
      identification purposes. (See page 12.)

   •	 Delivering education and tailoring kits expeditiously. (See page 12.)

On the basis of an evaluation of the mission’s response to the draft report, the Office of
Inspector General determined that final actions have been taken on recommendations 1,
2, 4, 5, 6, and 7, and a management decision has been reached on recommendation 3
(see page 13). The mission’s written comments on the draft report are included in their
entirety, without attachments, as appendix II to this report (see pages 16 to 23).




                                                                                        2
BACKGROUND

The Afghan Civilian Assistance Program (the program) was designed to assist Afghan
civilian families and communities that have suffered losses as a result of military
operations against insurgents and the Taliban. The program’s response to the needs of
these families and communities is expected to contribute to the overall stabilization of
Afghanistan. The program is based on the Leahy Initiative, which was authorized by the
Consolidated Appropriations Resolution, 2003 (Public Law 108─7). The Leahy Initiative
specified that assistance be made available for humanitarian, reconstruction, and related
purposes for Afghan communities and families adversely affected by military operations.1

USAID/Afghanistan awarded a 3-year, $27 million cooperative agreement to the
International Organization for Migration (IOM, the implementer) to implement the Afghan
Civilian Assistance Program, beginning April 1, 2007, and ending April 30, 2010. The
program typically provides goods and services; it is not intended to be a compensation
program, nor are condolence or cash payments generally provided. The implementer
has assisted war-affected Afghan communities since 2003 via USAID’s Afghanistan
Transition Initiative. The Afghanistan Transition Initiative has implemented mostly
shelter and small infrastructure projects, primarily in the southeastern region of
Afghanistan, an area particularly affected by military operations against insurgents and
the Taliban since 2001.

The program develops sustainable assistance packages to address the specific needs of
the program beneficiaries. For example, the program helps beneficiaries establish small
businesses or purchase livestock and tractors for their farms. It also provides
educational and vocational training, along with education and tailoring kits, for
beneficiary family members. The education kits include shoes, notebook paper, pens
and pencils and rulers and books. The tailoring kits include a sewing machine, chair,
table, iron, scissors, buttons, and pins.

As of December 31, 2008, $18.5 million had been obligated and about $6.4 million had
been spent for program activities.

AUDIT OBJECTIVE
The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2009 annual audit plan to answer the following question:

    •	 Is USAID/Afghanistan’s humanitarian assistance service provided through the
       Afghan Civilian Assistance Program achieving its main goal?



1
  A similar program in Iraq is the Marla Ruzicka Iraqi War Victims Fund (the Marla Fund), which
assists Iraqi civilian war victims who have suffered harm caused only by U.S. or Coalition Forces.
Management of the Afghan Civilian Assistance Program differs significantly from that of the Marla
Fund. An audit that USAID’s Office of Inspector General conducted of the Marla Fund discusses
the differences in management (Audit Report No. E-267-08-002-P, Audit of USAID/Iraq’s
Management of the Marla Ruzicka Iraqi War Victim’s Fund,” April 3, 2008).


                                                                                                3
Appendix I of this report contains a discussion of the audit’s scope and methodology.




 The program purchased materials to rebuild a home for 19 family members in Kabul, after an aerial 

                  bombing destroyed the building during a military operation.

                  (Photograph by Office of Inspector General, February 2009.)





                                                                                                  4
AUDIT FINDINGS

USAID/Afghanistan’s Afghan Civilian Assistance Program (the program) is not on target
to achieve its main goal of assisting families and communities that have suffered losses
as a result of military operations against insurgents and the Taliban.

The International Organization for Migration (the implementer) reported that as of
September 1, 2008, close to the midpoint of the program, only 803 of the more than
6,000 eligible families under the program─about 13 percent─were receiving assistance.
Under an October 2008 recovery plan to get the program back on track, the implementer
hoped to assist 5,102 of the estimated 6,378 eligible families by April 30, 2009.
However, as of January 22, 2009, the implementer reported that it had actually serviced
about 40 percent of the intended families─2,025 of the estimated target number of
5,102. An implementer official stated that the organization is not on track to assist the
targeted number of beneficiaries.

USAID/Afghanistan had very limited involvement in the program and little information on
its progress. Initially the mission could not measure the implementer’s progress under
the program because targets had not been set. Later, the implementer identified partial
performance targets, to which the mission agreed in an October 2008 recovery plan to
get the program back on track.

Notwithstanding these issues, the program did assist many beneficiaries. For example,
beneficiaries have received assistance that directly affected their ability to rebuild
houses and increase their farm and business income to provide for themselves and their
families.




    In September 2008, the program purchased a compressor and voltage regulator for a dentist
   who had been shot during a military incident at the airport in Nangarhar Province. The dentist
    said the equipment has increased the capacity of his dental clinic to serve patients and thus
         increased his income. (Photograph by Office of Inspector General, January 2009.)




                                                                                                    5
In addition, as part of the program’s assistance packages, beneficiaries were offered
education kits for school-aged family members and tailoring kits for female family
members to use to supplement family income. Moreover, the program provided much-
needed medical assistance and pharmaceutical supplies to beneficiaries.

Village elders from several districts in Nangarhar Province told us that the program has
greatly improved the lives of beneficiaries. They said that the implementer was
generally quick to investigate the scene where military incidents had occurred. The
elders further stated that the program was helping farmers and entrepreneurs and that
families were happy with the significant changes the assistance has brought to their
lives.

The audit identified several issues that the mission needs to address to improve the
results and impact of the program: (1) program assistance had not been effectively
monitored and evaluated, (2) program understaffing had impeded program performance,
and (3) program implementation should be improved to ensure efficiency and
effectiveness. For example, efficiency and effectiveness could be improved by limiting
the program eligibility period and requiring that beneficiaries present Afghan national
identification cards. These issues are discussed in more detail in the following sections.

Program Assistance Was
Not Effectively Monitored
and Evaluated

 Summary. USAID Automated Directives System guidance recommends substantial
 mission involvement during the administration of a cooperative agreement to help the
 recipient achieve the objectives of the agreement. We found that the mission was not
 substantively involved in the program and had not followed up regularly on the status
 of the implementation plan, monitoring and evaluation plan, and quarterly program
 reports. The mission also had not performed sufficient site visits of program activities
 or properly monitored the staffing of key positions. The mission’s current technical
 representative indicated that, because of other responsibilities, he had worked on the
 program only as time permitted. Until recently, the mission was not aware of the
 program’s slow progress. The lack of key planning documents, early in the life of the
 program, has impeded the program’s progress. Because of program delays, many of
 the intended beneficiaries did not receive assistance expeditiously.



Unlike mission involvement in grants, missions should be substantially involved in
cooperative agreements to the extent that it is reasonable and necessary, according to
the USAID Automated Directives System (ADS) 303.3.11, “Substantial Involvement in
Cooperative Agreements.” In addition, according to the program’s designation letters
for the agreement officer’s technical representative, the mission should exercise
substantial involvement and monitor the program through the technical representative.
Under the terms of the agreement, the implementer had several key reporting
requirements, such as preparation of an implementation plan, monitoring and evaluation
plan, and quarterly program reports, that were intended to help ensure success of the
program.



                                                                                            6
Although security problems have caused program delays from the start, an equal if not
greater problem has been the lack of timely and adequate monitoring and evaluation of
the program by the mission. We found that the mission was not substantively involved in
the program and had not regularly followed up on the status of the implementation plan,
monitoring and evaluation plan, and quarterly program reports. Moreover, the mission
had made only one site visit to evaluate the program’s progress prior to the audit. The
mission also had not properly monitored the staffing of key positions for the organization.
For example, we determined that one of the key positions, program support officer, had
not been filled until late November 2007 (about 8 months after the program started).

According to the cooperative agreement, the implementer was expected to submit a
draft implementation plan of its activities and a draft performance monitoring and
evaluation plan within 60 days of the start date of the cooperative agreement (by May
31, 2007). The implementer did not submit the required plans to the mission until
November 2007. Later, apparently because of the mission’s inaction, both plans were
resubmitted to the mission for review in March 2008. Although the mission’s current
technical representative had provided substantive help with the drafting and review of
the implementation plan, neither the implementation plan nor the monitoring and
evaluation plan received the required final approval of the technical representative.

Between April and October 2007, three different technical representatives were
appointed for the program. The mission’s previous technical representatives had not
required the implementer to prepare the required implementation plan and monitoring
and evaluation plan. The current technical representative (the fourth), appointed in
February 2008, indicated that as time permitted he had worked with the implementer to
develop and issue the required implementation plan and monitoring and evaluation plan.
The mission representatives’ failure to require the timely preparation and submission of
these key documents was a significant oversight that likely imperiled the program from
the beginning. In fact, at the time of the audit the program was still struggling to
overcome the mission’s inadequate monitoring and evaluation practices.

Moreover, the implementer did not submit quarterly program reports within 30 days after
the end of the reporting period, in accordance with the cooperative agreement and the
Code of Federal Regulations (22 CFR 226.51). In fact, three of the required seven
quarterly program reports were never prepared, and the first of the four quarterly
program reports provided was given to the mission about a year late. We reviewed the
four quarterly program reports prepared for the period from January 1 to December 31,
2008, and found them inadequate in several respects. For example, the quarterly
program reports did not include a comparison of actual accomplishments with the goals
and objectives set for the period or specific reasons why established goals had not been
met, and they did not provide cumulative reporting on program results against the
applicable targets. The current technical representative said he had not relied on the
reports because of their inadequacy.

The current technical representative stated that part of his time had been used on
activities other than the program. The technical representative also said he now spends
about 40 percent of his time on the program and does not believe he has enough time to
monitor and evaluate the program properly, especially because the program needs extra
attention to address the problems and delays.



                                                                                         7
Because of inadequate monitoring and evaluation, top mission officials were not aware
that the program had fallen significantly behind schedule. As a result of program delays,
many of the intended beneficiaries of the program did not receive assistance.

We believe that the program’s progress has been impeded by the lack of proper
monitoring and evaluation and key planning documents early in the life of the program.
Proper monitoring and evaluation would have revealed that required planning and
reporting documents for the program had not been submitted, clear targets had not been
established for assisting beneficiaries, and assistance was not being provided in a timely
way. Moreover, without an implementation plan the implementer was unable to develop
a viable plan to achieve the main program objective. Even though a recovery plan with
targets was established in October 2008, we are nevertheless making the following
recommendations to help ensure that the program is properly monitored and evaluated:

   Recommendation 1: We recommend that USAID/Afghanistan develop a plan that
   will provide sufficient work time for the agreement officer’s technical
   representative assigned to the Afghan Civilian Assistance Program to properly
   monitor and evaluate the programmatic needs for the program so that it can be
   implemented effectively and on schedule.

   Recommendation 2: We recommend that USAID/Afghanistan require the
   International Organization for Migration to adhere to a schedule in preparing and
   submitting the required planning and program reporting documents, such as
   implementation plans, monitoring and evaluation plans, and program reports to
   help the mission monitor and evaluate the implementation of the Afghan Civilian
   Assistance Program.

Program Progress Was Impeded by Understaffing

 Summary. The program cannot achieve its intended results, under an ambitious
 recovery plan, without sufficient staffing to keep pace with changing conditions. As
 of January 2009, only 56 of the 86 staff members that are needed to meet program
 targets had been acquired, and the program implementer was not keeping pace
 with changing program conditions. High-risk security conditions affected the
 staffing levels, and the need for program changes was not addressed effectively.
 Staffing shortages and slow reactions to changing conditions have delayed the
 program’s progress.


To keep pace with changing conditions of the program, a primary element of the
implementer’s October 2008 program implementation and recovery plan was to nearly
triple the staff level from 29 to 83 (later increased to 86) between August and November
2008. The program is implemented by the implementer’s direct-hire staff as well as staff
hired by a subcontractor acting on the implementer’s behalf.

To better assist beneficiaries who had not been serviced, the implementer designed a
program recovery plan as part of its October 2008 implementation plan. The recovery
plan, according to the mission’s technical representative, was based on a best case
scenario to achieve adequate staffing and reduce security concerns.



                                                                                        8
The audit found that the implementer’s headquarters in Kabul and its six regional offices
for the program have been significantly understaffed during most of the program period.
As of January 28, 2009, the organization had only 56 (about 65 percent) of the 86
employees that it believed were necessary to meet the April 30, 2009, targets it had set
in the recovery plan. In addition, we found that recruitment was still underway to acquire
two more international staff members, who would increase the program’s headquarters
international staffing level from three to five positions. The implementer’s documents
indicated that it was still in the process of acquiring 9 staff members and recruiting 21
more for the six regional offices where the program was being implemented. In addition,
as noted earlier, one of the key positions at headquarters, the program support officer,
was not filled until late November 2007 (about 8 months after the program had started).
The implementer considered that position to be one of the three key positions for the
program.

During our site visit to the implementer’s Nangarhar Regional Office in January 2009, we
found that only 9 of the 13 planned positions there had been filled. When the
program started in April 2007, the Nangarhar Regional Office had only two staff
members working on the program. One more was added in August 2008, about 16
months after the program’s inception. Of the nine filled positions, only the two original
staff members worked directly for the implementer─the other seven had been hired
through the implementer’s subcontractor. We were told that the subcontractor would
acquire four additional employees to work for the Nangarhar Regional Office.

The precarious security situation has hindered efforts to solve the problem of
understaffing, and the implementer has not found effective ways to increase the staff.
The implementer had wanted to hire locally, in the areas that would benefit from the
assistance, but recruitment has been slow. In the high-risk southern region, particularly,
the number of staff vacancies is much higher than the number of qualified applicants.

Although the subcontractor made progress recently in obtaining staff, the implementer
still had not acquired all the employees it needed to fully implement the program. Along
with the security problems, the staff shortage has been one of the main causes of delay
in providing assistance to program beneficiaries. We are therefore making the following
recommendation:

   Recommendation 3: We recommend that USAID/Afghanistan require the
   International Organization for Migration to take appropriate action to adequately
   staff the Afghan Civilian Assistance Program at a level sufficient to provide timely
   and effective assistance to eligible beneficiaries.

Program Implementation
Approaches Can Be Improved

 Summary. The Code of Federal Regulations states that recipients of USAID
 awards are responsible for managing and monitoring each program. The audit
 identified four issues that are making implementation of the program inefficient and
 less effective. Implementer officials said that they were too focused on program
 implementation issues or had not thought of changes needed to streamline the
 implementation process. Improved approaches should be implemented during the
 course of the program to ensure that resources are being used efficiently and
 effectively.

                                                                                          9
One measure of an efficient and effective program is its ability to adapt to changing
conditions during its implementation. The Code of Federal Regulations states in part
that award recipients are responsible for managing and monitoring each project,
program, subaward, function, or activity supported by the award (22 CFR 226.51 (a)).

The audit found four issues related to the implementation of the program that are making
it inefficient and less effective.

   1. 	 The implementer’s policy was to investigate military incidents in which Afghan
        civilians suffered losses going back to October 2001. Because of the length of
        time that has elapsed, the difficulty of verifying that the incidents occurred all the
        way back to October 2001 could lead to acceptance of inadequately documented
        or fraudulent claims.

   2. 	 The implementer’s policy was to keep grants open for at least 1 year even after
        all substantial services had been provided to the grant’s beneficiaries. Keeping
        the grants open longer than necessary requires continuing administrative follow
        up and reporting and causes a further drain on the implementer’s limited staff.

   3. 	Most eligible program beneficiaries were not required to obtain and present
       Afghan national identification cards to help ensure that they were not filing
       duplicate claims under the program.

   4. 	 The implementer was slow to provide supplementary assistance to beneficiaries
        such as education kits and tailoring kits.

The following paragraphs discuss these issues in greater detail.

Revising the Eligibility Period for Qualifying Military Incidents. The implementer’s
policy of investigating all incidents related to military operations going back to October
2001, when military operations first started, should be revised for several reasons. Our
review of the Nangarhar Regional Office program files disclosed only 5 such
beneficiaries out of 55 who had been affected by eligible military incidents between the
years 2001 and 2003 (4 in 2001 and 1 in 2003). The next most recent documented
military incidents did not take place until 2006, almost 3 years later, when seven military
operation incidents were identified. In addition, several groups of village elders whom
we interviewed told us that they did not know of any potential beneficiaries who might
have suffered physical or property damages as far back as October 2001 and who had
not been assisted by the program. The implementer and the mission’s technical
representative agreed that the eligibility period should be revised to a more recent cutoff
date.

Closing Out Program Grants. he implementer provides assistance to eligible
beneficiaries using grants that often cover multiple beneficiaries. The audit found that
none of the program’s 260 approved grants had been closed out, even after all
assistance had been provided to eligible beneficiaries under five of the grants. The
grants remained open because of a program policy to continue them for at least 1 year,
even after all substantial services have been provided to the beneficiaries. However,
implementer officials in Kabul and the Nangarhar Regional Office agreed with the


                                                                                           10
auditors that a shorter period─6 months rather than 1 year─would be a more reasonable
timeframe for grants to be active. Further, implementer officials said that if the
timeframe for keeping grants active were reduced, the number of monitoring reports
required for individual beneficiaries also could be reduced. The mission’s technical
representative agreed that grants could be completed and closed in 6 months, unless
extenuating circumstances would merit keeping them open.

Requiring National Identity Cards. Potential program beneficiaries should be required
to obtain national identification cards to ensure that they do not file duplicate claims
under the program. Previously, program beneficiaries had provided only a thumb print
and/or a signature in order to receive assistance. Subsequently the implementer began
to require that potential beneficiaries seeking assistance for shelter under community
grants obtain Afghan national identification cards as part of the beneficiary assistance
process. Because the budget for nonshelter grants can reach $3,500, we believe it
would be prudent to require applicants for those grants to present sufficient proof of their
identity as well, such as a national identification card. In recognition of the potential
fraud risk, implementer officials said that they agreed with the need for requiring
potential beneficiaries to document their identities with Afghan national identification
cards.

Education and Tailoring Kits Not Delivered Expeditiously. The implementer was not
delivering education and tailoring kits to program beneficiaries expeditiously. In part, the
implementer was slow to provide kits because the organization did not maintain a
sufficient inventory of the kits and had to deliver them after beneficiaries had received
their primary assistance. For example, the kits might be delivered several months after
a farmer had received a tractor or livestock or a grocery store owner had received
merchandise to stock his store. In response to the audit observations and in recognition
of the delays, implementer officials said they would initiate actions to ensure that the kits
can be issued more expeditiously.

Implementer officials stated that they had not changed their procedures as described
above, because they were too focused on implementation issues or had not thought of
the suggested changes to streamline the implementation process. Implementing all of
the recommended changes should make the program more efficient and effective and
allow staff to focus on new and partially served beneficiaries and communities under the
program. Although the implementer generally agreed with these changes, we are
nevertheless making the following recommendations:

   Recommendation 4: We recommend that USAID/Afghanistan require the
   International Organization for Migration to review its policy on the eligibility period
   for which applicants under the Afghan Civilian Assistance Program can apply and
   receive benefits to determine whether a more appropriate eligibility period should
   be used.

   Recommendation 5: We recommend that USAID/Afghanistan require the
   International Organization for Migration to review its policy on completed and
   closed-out grants to determine whether the policy should be revised, and, if
   appropriate, revise the policy in order that completed grants can be closed out
   more rapidly.




                                                                                             11
Recommendation 6: We recommend that USAID/Afghanistan require the
International Organization for Migration to review its policy on the acceptance of
identification from applicants under the Afghan Civilian Assistance Program to
determine whether the policy should be revised and, if appropriate, revise the
policy to require that national identity cards be used for identification.

Recommendation 7: We recommend that USAID/Afghanistan require the
International Organization for Migration to review its procedures on the
distribution of education and tailoring kits to program beneficiaries, under the
Afghan Civilian Assistance Program, to determine whether the kits are being
distributed expeditiously and, if not, initiate actions to remedy the distribution.




                                                                                      12
EVALUATION OF
MANAGEMENT COMMENTS
On the basis of an evaluation of the mission’s response to the draft report, the Office of
Inspector General determined that final actions have been taken on six
recommendations, and a management decision has been reached on one
recommendation. The status of each of the seven recommendations is shown below.

Final action—recommendations 1, 2, 4, 5, 6, 7
Management decision—recommendation 3

For recommendation 3, the mission agreed that the program should be fully staffed on
the basis of projected staffing needs identified by the program implementer. The
implementer is projecting that it will achieve its full projected staffing level in January
2010. In February 2010 the mission will follow up with the implementer to determine
whether the implementer has met its staffing target.

We consider that a management decision has been reached on recommendation 3. A
determination of final action will be made by the Audit Performance and Compliance
Division upon completion of the planned corrective actions.

The mission’s written comments on the draft report are included in their entirety, without
attachments, as appendix II to this report.




                                                                                        13
                                                                              APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. The objective of this audit was to determine
whether USAID/Afghanistan’s humanitarian assistance service provided through the
Afghan Civilian Assistance Program was achieving its main goal.

USAID/Afghanistan awarded a 3-year, $27 million cooperative agreement to the
International Organization for Migration (implementer) to implement the Afghan Civilian
Assistance Program (the program) beginning April 1, 2007, and ending April 30, 2010.
As of December 31, 2008, $18.5 million had been obligated and about $6.4 million had
been spent for program activities.

The audit fieldwork was conducted in Afghanistan from January 21 through
February 11, 2009, and covered the program’s activities implemented by the
implementer from agreement inception to February 2009. We conducted audit fieldwork
at USAID/Afghanistan and the implementer’s headquarters office in Kabul, Afghanistan.
Additionally, we made site visits to the implementer’s Nangarhar Regional Office in
Jalalabad, Afghanistan. As part of the audit, we selected individual beneficiaries to visit
in Kabul and the Jalalabad area of Afghanistan. Also, we met with a group of community
elders in Jalalabad to obtain their observations about the program.

Because of security restrictions, we had to modify the selection of beneficiaries visited in
both Kabul and Jalalabad. Also security restrictions imposed by the Regional Security
Office at the U.S. Embassy in Kabul prevented us from conducting our planned visit with
beneficiaries in Kandahar, Afghanistan. However, we believe that these restrictions did
not adversely affect the conclusions in this report.

As part of the audit, we assessed USAID/Afghanistan’s significant internal controls in
place to monitor the project activities. The assessment included controls related to whether
the mission had (1) conducted and documented site visits to evaluate and monitor
progress, (2) required and approved the implementer’s implementation plan and monitoring
and evaluation plan, (3) reviewed progress reports submitted by the implementer, and (4)
measured the implementer’s reported progress in comparison with planned progress and
the mission’s own evaluations of progress. The assessment also included controls
related to the contents of the agreement officer’s technical representative’s files to help
determine whether program oversight had been adequate. We also reviewed the
mission’s annual self-assessment of internal controls in accordance with the Federal
Managers’ Financial Integrity Act of 1982 (Public Law 97─255). Finally, we reviewed
relevant prior audit reports.




                                                                                         14
Methodology
USAID/Afghanistan and the implementer did not establish agreed-upon targets until
October 2008 as part of a recovery plan included in the implementer’s implementation
plan. Under the recovery plan, the implementer launched an initiative to assist 80
percent of eligible families affected by military operation incidents occurring before
October 31, 2008, and to accomplish the assistance by April 30, 2009. Therefore, in
order to answer the audit objective and test the mission’s controls over the program, we
modified the audit approach and designed audit steps to measure the progress toward
this target.

Specifically, to answer the audit objective, we interviewed officials and staff from
USAID/Afghanistan and the implementer, local village elders in the province of
Nangarhar, and program beneficiaries. We also reviewed and analyzed relevant
documents at both the mission and the implementer’s offices. This documentation
included annual work plans, the agreement and its modifications, site visit and other
monitoring reports, progress reports, financial reports and records, and grants issued to
program beneficiaries. Regarding the monitoring and evaluation systems at the mission
and implementer, we reviewed the systems to determine whether results were being
captured.

The implementer uses grants as the principal mechanism to deliver the approved
assistance to families and communities who have suffered losses as a direct or indirect
result of military operations. Of the program’s 260 approved grants, we reviewed the
supporting information for 10 selected grants to help determine the impact on Afghan
civilian families and communities that have suffered losses as a result of military
operations. Moreover, as part of the interview process with beneficiaries (identified
through the implementer’s grant award process), we asked questions about how they or
a family member had become eligible for benefits, the type of benefits they had received,
their family size, and the impact that the program has had on them and their families.

Because of security restrictions, we had to modify the selection of beneficiaries visited in
both Kabul and Jalalabad; primarily, they were beneficiaries that the implementer
thought would be safe to visit. Before visiting the beneficiaries selected by the
implementer, we reviewed the implementer’s pertinent files concerning the beneficiaries
and made a final decision as to which ones would be acceptable for our interviews.




                                                                                         15
                                                                           APPENDIX II 




MANAGEMENT COMMENTS



MEMORANDUM

TO:                   Bruce N. Boyer, Regional Inspector General/Manila

From:                 Rebecca Black, Acting Mission Director, USAID/Afghanistan /s/

DATE:                 December 13, 2009

SUBJECT:              Audit of USAID/Afghanistan’s Afghan Civilian Assistance Program
                      (Agreement No. 306-A-00-07-00516-00) (Audit Report No. 5-306-
                      10-00X-P)

REFERENCE: BBoyer/WFrej memo dated November 13, 2009

Thank you for providing the Mission the opportunity to review the subject draft audit
report. We would like to express our gratitude for the professionalism, flexibility,
resourcefulness, and hard work exhibited by the audit team while travelling to several
insecure areas throughout Afghanistan to conduct field work. We are providing
confirmation of the actions that have been taken or are planned to be taken to address
the recommendations in the audit report.

MISSION RESPONSES TO AUDIT RECOMMENDATIONS

Recommendation No. 1: We recommend that USAID/Afghanistan develop a plan
that will provide sufficient work time for the agreement officer’s technical
representative assigned to the Afghan Civilian Assistance Program to properly
monitor and evaluate the programmatic needs for the program so that it can be
implemented effectively and on schedule.

The Mission agrees with this recommendation.

Actions Taken:

USAID/Afghanistan has taken the following steps to ensure that the Agreement Officer’s
Technical Representative (AOTR) for the Afghan Civilian Assistance Program (ACAP)
has sufficient time to properly monitor and evaluate the programmatic needs for the
program so that it can be implemented effectively and on schedule.

Following the RIG audit of ACAP in January 2009, USAID/Afghanistan made several
changes with regard to the AOTR for ACAP. First, USAID/Afghanistan replaced the
previous ACAP AOTR with a fully-dedicated AOTR in July 2009. Second,



                                                                                      16
USAID/Afghanistan ensured that the incoming ACAP AOTR had a limited scope of work,
with the majority of the AOTR’s level of effort being dedicated to managing ACAP.
Lastly, USAID/Afghanistan placed the ACAP AOTR solely within the Mission’s Provincial
Reconstruction Team (PRT) Office, the office under which ACAP is housed, reporting
directly to the office director, which ensures that the AOTR will not divide his/her time
between ACAP and other duties outside of the PRT office. Please see attached as
Annex I the scope of work for the ACAP AOTR.

In addition to installing an AOTR dedicated to spending the majority of his/her level of
effort managing and monitoring the ACAP program, USAID/Afghanistan has arranged
for a four-member monitoring team to conduct third-party monitoring visits at four ACAP
field sites throughout Afghanistan during the month of January 2010. This third-party
monitoring will be conducted using an existing support services contract that the
USAID/Afghanistan Mission currently has in place. Please see attached as Annex II the
scope of work for the ACAP third-party monitoring exercise.

Based on the actions taken above, the Mission deems that a management decision has
been reached and corrective actions have been taken to address audit recommendation
No. 1. Therefore, we request your concurrence and closure of this open audit
recommendation.


Recommendation No 2: We recommend that USAID/Afghanistan require the
International Organization for Migration to adhere to a schedule in preparing and
submitting the required planning and program reporting documents, such as
implementation plans, monitoring and evaluation plans, and program reports to
help the Mission monitor and evaluate the implementation of the Afghan Civilian
Assistance Program.

The Mission agrees with this recommendation.

Actions Taken:

With regard to ACAP reporting, the cooperative agreement between USAID/Afghanistan
and the International Organization for Migration (IOM) already requires IOM to submit
program and financial reports on a quarterly basis. IOM has been on schedule
submitting its quarterly program and financial reports as of the second quarter in 2009
(January – March), and has submitted all required quarterly reports during FY 2009.
The ACAP AOTR received from IOM the third and fourth quarter reports by the end of
July and October 2009, respectively. Based on this, IOM has been adhering to the
required reporting schedule, per the award, for the past three quarters, and with the
ACAP AOTR providing regular oversight of IOM’s reporting, there is no reason to believe
that IOM will not continue to meet its reporting requirements throughout the remainder of
the program.

With regard to the implementation and monitoring and evaluation plans, per the
cooperative agreement, IOM is required to submit the implementation plan on an annual
basis, and the monitoring and evaluation plan 60 days following the effective date of the
cooperative agreement.

IOM submitted an initial Year Three Implementation Plan (May 2009 – April 2010) to the


                                                                                       17
previous ACAP AOTR in April 2009. As USAID/Afghanistan recently performed a
modification to extend the award (the award’s new end date is November 30, 2010), the
current ACAP AOTR requested IOM to submit a revised Year Three Implementation
Plan and an updated Monitoring and Evaluation Plan in conjunction with the approval of
the award extension. The AOTR received the draft Year Three Implementation Plan and
the updated Monitoring and Evaluation Plan in November 2009. The AOTR reviewed
these documents and sent comments to IOM on December 3, 2009, requesting that the
documents be revised accordingly and re-submitted for final approval, per the
cooperative agreement. (See AOTR e-mail and memo to IOM as Annex III.)

Based on the actions taken above, the Mission deems that a management decision has
been reached and corrective actions have been taken to address audit recommendation
No. 2. Therefore, we request your concurrence and closure of this open audit
recommendation.


Recommendation No 3: We recommend that USAID/Afghanistan require the
International Organization for Migration to take appropriate action to adequately
staff the Afghan Civilian Assistance Program at a level sufficient to provide timely
and effective assistance to eligible beneficiaries.

The Mission agrees with this recommendation.

Actions Taken:

Based on preliminary findings from the RIG audit of ACAP, the previous AOTR informed
IOM in February 2009 that it was imperative for them to fully staff ACAP positions
accordingly to their staffing projections. Following the RIG audit, IOM reassessed their
staffing needs based on the number of new incidents occurring in 2009, as well as the
number of eligible families still requiring ACAP assistance. While IOM staffing targets at
the time of the RIG audit were set at approximately 86 staff members, IOM revised these
targets based on staffing requirements to meet projected increases in the number of
eligible beneficiaries, and the extension of the program through November 30, 2010.

As of the end of September 2009, IOM had 127 staff dedicated to supporting ACAP,
posted in 15 offices throughout Afghanistan, including the headquarters in Kabul.
Please see below a table illustrating past, current, and projected IOM staffing for ACAP:




                                                                                       18
         Table 4. ACAP field office and staffing levels by region & province
 Region            Province/City            Apr Aug        Jan    Mar Sept       Jan 10
                                             07  08         09    09   09       (Targets)
    C      Kabul – Kabul City                 2   4         14    17   29          30
           Kandahar – Kandahar City           4   6         10    10   21          28
           Uruzgan – Tirin Kot                    1          2     2    3           5
    S
           Helmand – Lashkar Gah                  4          7     9   16          21
           Zabul – Qalat                          1          1     1    3           3
           Paktya – Gardez                    1   3          4     5    8          10
           Paktika – Sharana                      1          1     1    2           2
   SE
           Khost – Khost City                     1          2     2    4           7
           Ghazni – Ghazni City                              1     1   2           2
           Nangarhar – Jalalabad              2      2       9     9   13          15
    E      Nuristan – Kalagush                       1       1     1    1           3
           Kunar – Asadabad                                  1     2    7          10
           Herat – Herat City                 1      2       4     5    8          10
    W
           Farah – Farah City                       2        2     1   5           8
    N      Kunduz – Kunduz City               1      2       2     3    5           7
                       National Totals       11     29      61    69 127          161

The increase in staffing has had clear results with regard to ACAP implementation
between the period January – September 2009. During the final three quarters of FY
2009, IOM provided assistance to 1,499 new families, nearly doubling the total number
of families receiving ACAP assistance - 1,730 families as of the end of December 2008,
to 3,229 families as of September 30, 2009.

Per the above table, IOM is projecting that it will require 161 staff nationwide by the end
of January 2010. The ACAP AOTR will follow-up with IOM in February 2010 to
determine whether IOM has met this staffing target.

Based on the above, the Mission deems that a management decision has been reached
on this audit recommendation and requests your concurrence.


Recommendation No 4: We recommend that USAID/Afghanistan require that the
International Organization for Migration review its policy on the eligibility period
for which applicants under the Afghan Civilian Assistance Program can apply and
receive benefits to determine whether a more appropriate eligibility period should
be used.

The Mission agrees with this recommendation.

Actions Taken:

As a point of clarification, it should be noted that Afghan civilians do not “apply” for



                                                                                            19
ACAP assistance, and are not considered to be “applicants.” IOM tracks incidents
involving coalition forces, insurgents, and Afghan civilians, and determines whether
households qualify for ACAP assistance based on the eligibility criteria that have been
established for the Program (see eligibility criteria attached as Annex IV). After learning
of an incident, IOM ACAP staff verify the information and potential claims through a
number of sources, including coalition military forces, Provincial Reconstruction Teams
(PRTs), the Government of Afghanistan (GIRoA), local shuras, elders, and officials, and
media reports. Once it has been determined that a household(s) is eligible for ACAP
assistance, IOM staff interview the potential beneficiaries, and coordinate the delivery of
assistance packages through appropriate local channels, including those already
mentioned.

In line with Recommendation No. 4., the ACAP AOTR instructed IOM to modify the
targeting of ACAP assistance so as to target newly occurring incidents. (See Annex III
for detailed guidance provided to IOM.) With regard to the eligibility period for ACAP
assistance, IOM will prioritize newly occurring cases over those that occurred previously,
and will focus efforts primarily on those incidents occurring within the life of the current
award – April 2007 through November 2010.

For those pre-April 2007 incidents already entered into the database that have yet to
receive ACAP assistance, IOM will determine which ones they can realistically access
and respond to with available resources, and which ones that will need to be removed
from the database. In eliminating select past incidents from the database, IOM staff will
be able to more readily focus the majority of their efforts and resources on newly
occurring incidents, and those that have occurred within the life of the project.

Based on the actions taken above, the Mission deems that a management decision has
been reached and corrective actions have been taken to address audit recommendation
No. 4. Therefore, we request your concurrence and closure of this open audit
recommendation.


Recommendation No 5: We recommend that USAID/Afghanistan require that the
International Organization for Migration review its policy on completed and
closed-out grants to determine whether the policy should be revised, and, if
appropriate, revise the policy in order that completed grants can be closed out
more rapidly.

The Mission agrees with this recommendation.

Actions Taken:

In August 2009, the ACAP AOTR and IOM management staff met to review standing
ACAP policies and discuss a number of steps to be taken aimed at expediting the
delivery of ACAP assistance. (See Annex V for full details.) One particular modification
to ACAP implementation that was included in the list of changes was reducing the length
of ACAP assistance grants. As of September 2009, all ACAP assistance grants are a
maximum of six months. IOM conducts a final monitoring visit at the end of the grant,
and aims to close out the grant 30 days following the final monitoring. This will enable
IOM to close out assistance grants in half the time they have previously spent on
completing grants.


                                                                                         20
Based on the actions taken above, the Mission deems that a management decision has
been reached and corrective actions have been taken to address audit recommendation
No. 5. Therefore, we request your concurrence and closure of this open audit
recommendation.


Recommendation No. 6: We recommend that USAID/Afghanistan require that the
International Organization for Migration review its policy on the acceptance of
identification from applicants under the Afghan Civilian Assistance Program to
determine whether the policy should be revised, and, if appropriate, revise the
policy to require that national identity cards be used for identification.

The Mission agrees with this recommendation.

Actions Taken:

On February 28, 2009, the ACAP AOTR instructed IOM to report to USAID on the costs,
benefits, and feasibility of requiring recipients of ACAP assistance to possess a national
ID card. IOM responded to this instruction on April 22, 2009 with their revised policy on
ID cards. (See Annexes VI, VII, and VIII.)

IOM has taken the following steps to ensure that ACAP assistance is not being provided
to the same beneficiaries more than once.

All ACAP beneficiaries are asked to present their national ID card at the time that
IOM staff conduct the family assessment. The national ID card number is
recorded in the IOM ACAP grants database following the interview. In situations
where beneficiaries do not possess a national ID card, IOM ACAP staff ask them
to obtain one as soon as possible, and request the beneficiaries to produce
another form of identification (driver’s licence, voter registration card, etc.).

The IOM database is searched by ID number, name (including father’s name),
and location (village) before issuing new grants to avoid any duplication.
However, ACAP assistance is not contingent on the beneficiary possessing a
national ID card.

For those who have national ID cards:
   •	 all beneficiaries are asked for their ID card at the time of the family assessment
   •	 ID card number is recorded in the grant database
   •	 when a new grant is created a search is done using the name and ID card
       number to check if the beneficiary has been previously assisted under ACAP
   •	 a photocopy of the ID is included as a supporting document to the payment
       voucher

For those who do not have national ID cards:
   •	 the beneficiary is asked to obtain an ID card as soon as possible; however
       assistance is not dependent on the beneficiary possessing a national ID card




                                                                                        21
   •	 another form of identity (driver’s license, voter registration card, etc.) is taken in
      place of a national ID card
   •	 when a new grant is created, a search is done using the beneficiary’s name
      (including father’s name) and location (village)

Based on the actions taken above, the Mission deems that a management decision has
been reached and corrective actions have been taken to address audit recommendation
No. 6. Therefore, we request your concurrence and closure of this open audit
recommendation.


Recommendation No. 7: We recommend that USAID/Afghanistan require that the
International Organization for Migration review its procedures on the distribution
of education and tailoring kits to program beneficiaries, under the Afghan Civilian
Assistance Program, to determine whether the kits are being distributed
expeditiously and, if not, initiate actions to remedy the distribution.

The Mission agrees with this recommendation.

Actions Taken:

On February 28, 2009, the ACAP AOTR instructed IOM to develop a plan for pre-
ordering and pre-positioning standard forms of assistance, including education and
tailoring kits. Following this instruction, IOM reviewed their procedures and determined
that their procurement process was the primary cause for their inability to expeditiously
distribute assistance kits. IOM responded to the instruction on April 22, 2009 with their
revised policy on pre-ordering and pre-positioning standard forms of assistance. (See
Annexes VI, VII, and IX.)

IOM has taken the following steps:

In order to expedite the procurement process and ensure timely distribution of the
assistance kits, IOM signs Long Term Agreements (LTA)’s with various vendors in the
following areas:
        (i) 	   Kabul – to serve requirements of Wardak, Logar and Ghazni and to
                support the requirements for Gardez and all the areas covered by Gardez
                in case there will be shortage of stocks of assistance kits in Gardez.
                Kabul may also supply Kunduz in case there will be shortage of stocks in
                Kunduz.
        (ii) 	 Kandahar – to serve requirements of Kandahar province as well as the
                provinces of Zabul and Uruzgan
        (iii)	  Lashkargah – to serve the requirements of Helmand Province
        (iv) 	 Herat – to serve requirements of Herat and Badghis and support the
                requirements of Farah in case there will be shortage of stocks of
                assistance kits in Farah
        (v) 	   Kunduz – to serve requirements of Kunduz
        (vi) 	 Gardez – to serve requirements of Gardez, Paktia, Paktika and possibly
                Logar in case Logar is cut off from the supply line from Kabul
        (vii) 	 Jalalabad – to serve requirements of the provinces of Nangarhar and
                Laghman and to support the requirements of Kunar in case there will be
                shortage of stocks of Assistance Kits in Kunar


                                                                                           22
       (viii)   Azadabad – to serve the requirements of Kunar province

To facilitate the signing of the LTA’s in these areas, bids are conducted for the supply of
ACAP assistance kits in the areas listed above. All bids for these requirements are done
through IOM’s Logistics Department and the Bids and Awards Committee (BAC).

The bidding does not indicate the quantity of each type of the assistance kit but in order
to attract possible bidders, an estimated total value of the business is floated to the
bidders.

The LTA’s have a validity of six months. After six months, depending on the
performance of the vendors, IOM either conducts another bid or negotiates with the
existing vendors and renews the LTA’s under the same prices, terms and conditions.

By instituting this proactive procurement process, IOM is able to readily access standard
ACAP assistance kits and deliver them to beneficiaries in an expedited manner.

Based on the actions taken above, the Mission deems that a management decision has
been reached and corrective actions have been taken to address audit recommendation
No. 7. Therefore, we request your concurrence and closure of this open audit
recommendation.


Attachments

Annex I: Duties/Responsibilities of ACAP AOTR

Annex II: Scope of Work for Third Party Monitoring of ACAP

Annex III: December 3, 2009 e-mail from ACAP AOTR to IOM requesting revisions to
Year Three Implementation Plan

Annex IV: ACAP Eligibility Criteria

Annex V: Simplifying the Current ACAP

Annex VI: February 28, 2009 e-mail from ACAP AOTR to IOM regarding corrective
actions to be taken

Annex VII: April 22, 2009 e-mail from IOM to ACAP AOTR in response to February 28,
2009 e-mail on corrective actions to be taken

Annex VIII: IOM ACAP ID Card Policy

Annex IX: IOM ACAP Procurement Guidelines




                                                                                        23
U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202─712─1150 

            Fax: 202─216─3047 

            www.usaid.gov/oig
